"The President's Council on Integrity and Efficiency Debt Collection Initiative at the Centers for Medicare&Medicaid Services Region IV Regional Office,"(A-04-01-03000)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"The President's Council on Integrity and Efficiency Debt Collection Initiative at the Centers for Medicare & Medicaid
Services Region IV Regional Office," (A-04-01-03000)
December 31, 2001
Complete
Text of Report is available in PDF format (1.99 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to:  (1) determine the amount and collectibility of non-tax delinquent debt owed
to Medicare that existed at September 30, 2000; and (2) assess the Centers for Medicare & Medicaid Services (CMS) Region
IV Regional Offices (RO) management activities to ensure that pro-active measures are taken to collect the delinquent
debt before it is referred to the Treasury for collection.  The accounts receivable balances CMS RO reported on the
R751 for financial statement purposes for the period ending September 30, 2000 for Part A (non-MSP (Medicare Secondary
Payor), MSP and Currently Not Collectible (CNC)) accounts receivable was $25,120,726 in principal and $19,531,898 in interest
and the balance for Part B (non-MSP, MSP and CNC) was $161,654,066 in principal and $89,712,836 in interest.  Our
reconciliation of these balances to the subsidiary records showed the Part A non-MSP was understated by $102,927,298 and
the Part B non-MSP was overstated by $2,608,769.  We also determined that the Part A MSP balance was overstated by
$3,516.  Other audit tests we performed on statistical samples of Part A non-MSP and Part B non-MSP balances showed
the vast majority of receivables were recorded, supported, complete, properly valued and existed at September 30, 2000.  We
recommended that the RO:  (1) promptly reconcile their support before reporting the amounts on the R751, RC751 and
the RM751; (2) increase the Part A balances totaling $102,923,782 and reduce the Part B balances totaling $3,653,761; (2)
correct status codes on three Part B balances to show the accurate location of the balances; (3) establish a system of
internal control that will provide adequate and timely tracking of its collection activities; and (4) transfer two Part
A MSP balances totaling $4,114 back to the contractor.